i

No:

In the
Supreme Court of the United States

ROGER JOSE ALMANZAR,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROOF OF SERVICE
I, Roger Jose Almanzar, do swear declare that on this day,

t3 day of

October 2020, as required by Supreme Court Rule 29,1 have served the enclosed
Petition for Writ of Certiorari, on the Solicitor General of the United States, Room
5614, Department of Justice, 10th Street and Constitution Ave., N.W., Washington,
D.C. 20530, and every other person required to be served via First Class Prepaid
Postage.

Done this

, day of October 2020.
Respectfully submitted,

Roger Almanzar
Reg. # 67686-054
FCI Cumberland
P.O. Box 1000
Cumberland, MD 21501

‘ws*

No:

In the
Supreme Court of the United States

ROGER JOSE ALMANZAR,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF FILING

I, Roger Jose Almanzar, pursuant to Supreme Court Rule 29.2 do hereby certify
under penalty of perjury pursuant to Title 28 U.S.C. § 1746, that on Ocotber tb ,
2020 I placed my copy of my petition for a Writ of Certiorari to the United States
Supreme Court in the Federal - Legal Mail Box for mailing with sufficient First
Class Postage.
I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.

RECEIVED
OCT 2 6 2020
juPRHMQEFCTOI^RTLMR0K

t,*—*-*.

I hereby do certify that pursuant to Penalty
of Perjury Title 28 U.S.C. § 1746 that on
this _l
day of October 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Roger Almanzar
Reg. # 67686-054
FCI Cumberland
P.O. Box 1000
Cumberland, MD 21501

